5/18/2016

Visa Disclosures

Login

Enroll for Online Banking
MENU

IMPORTANT DISCLOSURE INFORMATION - UNITY ONE CREDIT UNION VISA® GOLD
CREDIT CARD

http://info.unityone.org/visa­disclosures

1/6

5/18/2016

http://info.unityone.org/visa­disclosures

Visa Disclosures

2/6

5/18/2016

http://info.unityone.org/visa­disclosures

Visa Disclosures

3/6

5/18/2016

Visa Disclosures

How we will Calculate Your Balance. We will use a method called “average daily balance” (including new purchases). We
may charge the rates, fees, and terms of your card agreement from time to time as permitted by law. We will give you
advance notice of the changes and a right to opt out to the extent required by law.
http://info.unityone.org/visa­disclosures

4/6

5/18/2016

Visa Disclosures

Billing Rights. Information on your rights to dispute transactions and how to exercise those rights is provided in your
Account Agreement.How we will Calculate Your Balance. We will use a method called “average daily balance” (including
new purchases). We may charge the rates, fees, and terms of your card agreement from time to time as permitted by law.
We will give you advance notice of the changes and a right to opt out to the extent required by law.
Effective Date. The information about the cost of the card described in this application is accurate as of March 23, 2011.
This information many have changed after that date. To find out what may have changed, contact the Credit Union by
calling (800) 628-5517.
NOTICE: READ AND RETAIN THIS VISA CARD AGREEMENT AND DISCLOSURE FOR FUTURE REFERENCE. New
York Residents: We may obtain your credit report in connection with this extension of credit and subsequently for updates,
collection or other legitimate purposes associated with extension of the credit. Ohio Residents: Ohio anti-discrimination laws
require creditors to make credit equally available to all creditworthy customers and that credit reporting agencies maintain
separate credit histories on individuals upon request. The Ohio Civil Rights Commission administers compliance with this
law. Vermont Residents: By responding to this offer of credit, you consent to our obtaining your credit report in connection
with this extension of credit, and subsequent credit reports for the purpose of reviewing the account, increasing the credit
line, taking collection action or other legitimate purposes associated with your account. Married Wisconsin Residents: No
provision of any marital property agreement, unilateral statement, or court order applying to marital property will adversely
affect the Credit Union’s interest unless prior to the time
credit is granted, the Credit Union is furnished with a copy of the agreement, statement of court order, or has actual
knowledge of the provision.
*Rates quoted as APR, Annual Percentage Rate. Your precise rate will depend on your credit worthiness. You must qualify
for the lowest rate. Contact the Credit Union for the current rate you qualify for.
**Penalty Rate: If you are thirty (30) or more days delinquent in making payments three times in a twelve (12) month
period, the APR on your account will increase to the penalty rate of 18%. The Penalty APR will apply until you make six (6)
consecutive minimum payments when due.
NON-SUFFICIENT FUNDS FEE: A Non-Sufficient Funds fee of $25 will be charged to your account for any check returned
unpaid. We will charge you this fee the first time any payments returned unpaid, even if paid upon resubmission.
LOST/STOLEN CARDS: if you notify us verbally by calling (800) 325-3678 or in writing at VISA Customer Service - Credit
Card Security Dept., PO Box 30495, Tampa, FL, 33630, within two (2) business days of a loss, theft, or possible
unauthorized use of your card, you will not be liable for any unauthorized purchases.
TRAVEL ACCIDENT INSURANCE: Travel Accident Insurance of up to $500,000 for Gold and up to $250,000 for Classic.
Starter and Savings Secured available only charges for a common carrier tickets are made to a Unity One VISA Credit Card.

Banking with Us
Lending Center
Checking Accounts
Savings Accounts
E-Services
Member Discounts

Member Services
Open an Account
Manage Your Account
Download Online Forms
http://info.unityone.org/visa­disclosures

5/6

5/18/2016

Visa Disclosures

Bill Pay
View Our Calendar

Learn More
Financial Education
View Our FAQs
About Unity One
Eligibility
Become a Member

Call Us: 800-628-5517
Unity One Credit Union has a full-line of products and services to meet your needs. Hassle-free and community-minded,
Unity One is the banking solution for any lifestyle.
EMAIL US

FIND A LOCATION

LIKE US ON FACEBOOK

FOLLOW US ON TWITTER

Copyright 2015 Unity One Credit Union

Sitemap

Site by: Glint Advertising

NMLS 411620 | PRIVACY | DISCLOSURES | FEE SCHEDULE | 800.628.5517

This credit union is federally insured by the
NATIONAL CREDIT UNION ADMINISTRATION

http://info.unityone.org/visa­disclosures

6/6

